No. 19-422

PATRICK J. COLLINS, et al.,
Petitioners,

v.

STEVEN T. MNUCHIN, SECRETARY, U.S. DEPARTMENT OF TREASURY, et al.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Charles J. Cooper, a member of
the Supreme Court Bar, certify that the REPLY BRIEF FOR PETITIONERS in the
above entitled case complies with the typeface requirement of Supreme Court Rule
33.1(b), being prepared in Century Schoolbook 12 point for the text and 10 point for
the footnotes, and that this brief complies with the word limitation of Supreme Court
Rule 33.1(g)(x), containing 3,000 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d).

Date: November 12, 2019
CKarlés J° Coop
